   July 24, 2002




Information Technology

Global Command and Control
System Readiness Assessment
System Output Tool
(D-2002-133)




              Department of Defense
          Office of the Inspector General
Quality              Integrity        Accountability
  Additional Copies

  To obtain additional copies of this audit report, visit the Inspector General, DoD,
  Home Page at www.dodig.osd.mil/audit/reports or contact the Secondary Reports
  Distribution Unit of the Audit Followup and Technical Support Directorate at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                      Inspector General, Department of Defense
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
  writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The
  identity of each writer and caller is fully protected.




Acronyms
CJCS                  Chairman of the Joint Chiefs of Staff
DISA                  Defense Information Systems Agency
GCCS                  Global Command and Control System
JRAMS                 Joint Readiness Automated Management System
RAS                   Readiness Assessment System
GSORTS                Global Status of Resources and Training System
         Office of the Inspector General of the Department of Defense

Report No. D-2002-133                                                     July 24, 2002
  (Project No. D2001LG-0101.01)

              Global Command and Control System Readiness
                      Assessment System Output Tool

                                  Executive Summary

Who Should Read This Report and Why? This report should be read by the Global
Command and Control System (GCCS) requirements developers, program
implementers, functional proponents, and readiness users who rely on them. The
report discusses the development and fielding of a GCCS candidate solution for the
readiness functional area.

Background. This is the second in a series of reports the Inspector General of the
Department of Defense is issuing on the policies and procedures that govern the GCCS.
The GCCS is the DoD joint command and control system designed to provide the
military leadership with tools to plan and execute worldwide joint military operations.
The Readiness Assessment System Output Tool is a GCCS application designed to
fulfill both Service and combatant command readiness assessment requirements at the
tactical, operational, and strategic levels.

Results. The Joint Staff and the Defense Information Systems Agency did not ensure
that development of the Readiness Assessment System Output Tool would address user
needs. Fielding dates for the Readiness Assessment System Output Tool slipped at least
5 years, and the potential users were not involved for extended periods. In addition,
decisions on application selection were not fully documented. Readiness users and the
systems developers would benefit from increased user involvement in requirement
validations and testing processes as well as more effective documentation of cost,
feasibility analyses, goals, and decisions. The program would benefit with
development of concrete and quantifiable performance standards that can be accurately
tested as well as a formal report on how the Readiness Assessment System Output Tool
requirements meet performance standards. We also reviewed the management control
program as it relates to the development and fielding of GCCS applications. See the
Finding section for details on the audit results and recommendations.

Management Comments and Audit Response. The Director, Joint Staff, the
Director, Defense Information Systems Agency, and the Deputy Assistant Secretary of
Defense (Programs), Office of the Assistant Secretary of Defense, Command, Control,
Communications, and Intelligence each stated that planned or completed actions
sufficiently addressed the recommendations. After review of feedback from the user
community and validation of requirements, the Readiness Assessment System Executive
Steering Committee directed the Defense Information Systems Agency to reengineer the
Readiness Assessment System Output Tool. The Defense Information Systems Agency
installed pre-release, functioning versions of the Readiness Assessment Systems Output
Tool for users to evaluate in the Joint Staff, four Service headquarters, two Service-
Component headquarters, and two combatant command headquarters. The Joint Staff
required user representatives to participate in functional user and operational testing.
The users were encouraged to submit the evaluations at any time during the review
period. The Joint Staff plans to establish an additional user review panel that will
evaluate the requirements not incorporated into the Readiness Assessment System
Output Tool schedule. See the discussion of comments in the recommendations section
and Appendix C. We consider the comments received to be responsive. As a result of
comments from the Joint Staff, we added a recommendation for the Under Secretary of
Defense for Personnel and Readiness to publish findings from research on readiness
issues for the Defense Readiness Reporting System. Further, we revised the
recommendations for the Joint Staff and the Defense Information Systems Agency to
recognize progress made and encourage future user involvement. We request the
Under Secretary of Defense for Personnel and Readiness the Joint Staff and the Defense
Information Systems Agency provide comments on the final report by
September 24, 2002.




                                          ii
Table of Contents
Executive Summary                                                         i

Background                                                                1

Objectives                                                                3

Finding
     Readiness Assessment System Output Tool Development and Fielding     4

Appendixes
     A. Scope and Methodology                                            21
         Scope                                                           21
         Methodology                                                     21
         Management Control Program Review                               22
         Prior Coverage                                                  23
     B. Readiness Assessment System Applications                         24
     C. Management Comments on the Report and Audit Responses            26
     D. Report Distribution                                              32



Management Comments
     Assistant Secretary of Defense (Command, Control, Communications,
        and Intelligence)                                                35
     Joint Staff                                                         41
     Defense Information Systems Agency                                  59
Background
            Global Command and Control System. The Global Command and Control
            System (GCCS) is the DoD joint command and control system designed to
            provide the leadership from the National Command Authority1 through the
            battlefield commanders with tools to plan and execute worldwide joint military
            operations. GCCS consists of interoperable hardware, software, common
            procedures, standards, and interfaces that comprise an “operational
            architecture.” GCCS incorporates force planning, readiness assessment, and
            situational awareness2 applications that battlefield commanders require to
            effectively plan and execute joint military operations.

            Global Command and Control Management Structure. Stakeholders within
            the Global Command and Control management structure participate in GCCS
            requirements validation, system development, and system implementation.

               Requirements Validation. The Global Command and Control Review
            Board, the Joint Staff, GCCS users, and working groups participate in
            requirements validation.

                    Joint Staff. The Joint Staff, as the project sponsor for all GCCS
            applications, represents the needs of the users. Through the requirements
            validation and approval process, the Joint Staff identifies and prioritizes
            functional requirements GCCS must satisfy.

                    Global Command and Control Review Board. Representatives from
            each of the Joint Staff directorates, Services, combatant commands, and GCCS
            working groups make up the Global Command and Control Review Board. The
            Global Command and Control Review Board is responsible for (1) identifying,
            reviewing, and validating requirements added to GCCS; (2) approving and
            prioritizing requirements; (3) selecting the best candidate application for
            integration into GCCS; and (4) approving policies and procedures that support
            joint command and control requirements.

                   User Community. GCCS users within the combatant commands,
            Services, Defense agencies, or the Joint Staff may identify and introduce any
            GCCS functional requirements. The functional users participate in defining
            requirements throughout the evaluation, development, and fielding of
            applications.

                    GCCS Working Groups. Working groups meet regularly and allow
            operational users to participate in developing and refining input for GCCS
            strategies, objectives, requirements, and priorities. GCCS working groups

1
    The National Command Authority is the President or the Secretary of Defense or their duly deputized
    alternates or successors.
2
    Situational awareness is knowledge of friendly and adversary capabilities and intentions along with other
    relevant information that enables commanders to exercise effective command and control.

                                                       1
            review new requirements, validate assigned priorities, evaluate the extent to
            which existing applications meet new requirements, and recommend new
            requirements to the Global Command and Control Review Board.

               System Development and Implementation. The Assistant Secretary of
            Defense (Command, Control, Communications, and Intelligence) (Assistant
            Secretary), Defense Information Systems Agency (DISA), and Integrated
            Process Teams have key roles in GCCS system development and
            implementation.

                   Assistant Secretary of Defense (Command, Control,
            Communications, and Intelligence). The Assistant Secretary provides
            functional and acquisition control over GCCS through review and approval of
            the acquisition strategy, implementation plans, and program baseline goals.

                    Defense Information Systems Agency. As the centralized program
            manager for GCCS, DISA directs design, development, acquisition, integration,
            testing, fielding, and life-cycle support of GCCS applications. The program
            manager is also responsible for developing metrics to measure program progress
            and effectiveness.

                    Integrated Process Teams. System development and implementation
            concept for the GCCS rely heavily on representatives from functional disciplines
            that work together in Integrated Process Teams to build a successful program
            and enable decision makers to make timely decisions that will facilitate the
            acquisition process.

            Readiness Assessment System. In 1996, the Defense Advanced Research
            Projects Agency was developing the Readiness Assessment System (RAS) as an
            Advanced Concept Technology Demonstration.3 DISA and the Joint Staff
            elected to add RAS to GCCS. The addition of the RAS to GCCS would provide
            a comprehensive readiness reporting system and offer a more accurate and
            timely capability to measure joint readiness, warfighting deficiencies, and risk
            for executing wartime missions. Improving asset visibility and integrating
            leading readiness indicators are additional goals of the RAS.

            The RAS was originally intended to merge four independent applications into a
            homogenous system. The four applications were the Automated Joint Monthly
            Readiness Review, the Joint Exercise Management Program III, the RAS Input
            Tool, and the RAS Output Tool.4 However, the Automated Joint Monthly
            Readiness Review has since been eliminated, and the Joint Exercise
            Management Program III was replaced. The Marine Corps is scheduled to

3
    Advanced Concept Technology Demonstrations are intended to assess the military utility of a new
    capability and to conduct an assessment at a scale adequate enough to clearly establish operational utility
    and system integrity.
4
    The RAS Input Tool and the RAS Output Tool were originally referred to as the Global Status of
    Resources and Training System (GSORTS) Enhanced Input Tool and the GSORTS Enhanced Output
    Tool, respectively.

                                                        2
            receive the RAS Input Tool during FY 2002, and the Air Force is scheduled to
            receive the RAS Input Tool during the third quarter of FY 2003. See
            Appendix B for a detailed description of the Automated Joint Monthly Readiness
            Review, the Joint Exercise Management Program III, and the RAS Input Tool.

            RAS Output Tool. The RAS Output Tool was designed to fulfill both Service
            and combatant command readiness assessment requirements at the tactical,
            operational, and strategic levels. As a part of GCCS, the RAS Output Tool is
            intended to provide near real-time access to, and analysis of, readiness data
            stored in the GSORTS database,5 Time-Phased Force and Deployment Data6
            stored in the Joint Operation Planning and Execution System7 database, and
            5 years of readiness data. By employing the RAS Output Tool, the Services
            want more versatility and efficiency for reviewing the readiness of forces and
            acquiring insight into joint- and national-level readiness assessments. The
            application is also intended to allow the combatant commands to assess the
            readiness of forces across Service lines and provide readiness assessment
            capabilities required to plan for and facilitate timely resource allocation and
            force commitment recommendations to the National Command Authorities.
            DISA planned to field an initial version of the RAS Output Tool, followed by
            four Service-unique versions of the application.

            RAS Development. On January 11, 1999, DISA awarded a contract
            (DCA100-99-C-4019) to A.B. Floyd Enterprises, Incorporated, Alexandria,
            Virginia, for readiness application support, maintenance, and enhancement.
            DISA uses the contract to procure RAS Output Tool development efforts.

Objectives
            This is the second in a series of reports that the Inspector General of the
            Department of Defense is issuing on the policies and procedures that govern the
            GCCS. The overall audit objective was to evaluate the joint functionality,
            system integration, and operations of GCCS. The specific objective for this
            segment of the audit was to assess management and oversight of the RAS Output
            Tool. See Appendix A for a discussion of the audit scope, methodology,
            management control program, and prior coverage.

5
    The GSORTS database is a read-only look into the Status of Resources and Training System database.
    Military units, some DoD organizations, and certain foreign and international organizations involved in
    operations with DoD regularly enter data on the status of unit personnel, training, equipment on hand,
    and equipment serviceability.
6
    Planners use Time-Phased Force and Deployment Data (such as estimates of logistics support
    requirements and designated ports for loading and offloading) to identify types of forces and actual units
    required to support an operation plan and establish the sequence for moving forces and their support
    (time phasing) into an area of operations.
7
    The Joint Operation Planning and Execution System is a mission essential GCCS application used to
    conduct joint planning, execution (including theater-level nuclear and chemical plans), and monitoring
    activities.

                                                        3
                   Readiness Assessment System Output
                   Tool Development and Fielding
                    DISA and the Joint Staff did not provide sufficient assurance that the
                    RAS Output Tool would satisfy user requirements. In addition, DISA
                    and the Joint Staff did not meet RAS Output Tool development and
                    fielding milestones. Those conditions occurred because DISA and the
                    Joint Staff excluded potential users for extended periods, underestimated
                    the level of effort to develop the software, did not fully document
                    critical decisions on application selection and development estimates,
                    and did not establish effective performance measurements to monitor
                    development. In addition turnover of key personnel and failure of the
                    application to meet minimum operational standards during testing
                    delayed fielding. As a result, DoD has:

                            •   spent $1.3 million as well as an unknown portion of an
                                additional $9.2 million to develop the RAS Output Tool;8

                            •   estimated that an additional $5.6 million will be required to
                                complete development and field the application; and

                            •   projected that the application will be fielded at least 5 years
                                late.

                   In addition, delays in fielding made it necessary for the combatant
                   commands and Services to either develop new applications or modify
                   existing applications that would satisfy their unique requirements for
                   performing readiness analysis.

Criteria
           Global Command and Control System Development Strategy. In
           August 1993, the Assistant Secretary directed that GCCS should be developed
           using evolutionary initiatives designed to provide to users rapid and efficient
           delivery of command and control capabilities.

           In June 1995, the Assistant Secretary further redelegated functional
           responsibilities for GCCS to ensure more effective management and life-cycle
           support for the system. One of the justifications provided for use of
           evolutionary acquisition initiatives for GCCS was that:



8
    In comments provided on the draft report DISA stated that RAS Output Tool expenditures totaled
     approximately $6.1 million between January 1998 and March 2002 of which $1.72 million was spent
     under the Defense Advanced Research Projects Agency management. DISA did not provide
     documentation supporting either amount.

                                                    4
                          Traditional acquisition programs in the past have not been able to
                          accommodate rigid milestones programs, contributing to stovepipe
                          systems. GCCS . . . will allow new technology and leading edge
                          capabilities to be integrated much faster throughout the warfighter
                          community.

            Requirements Evaluation Procedures. Chairman of the Joint Chiefs of Staff
            Manual 6721.01, “Global Command and Control System (GCCS) Functional
            Requirements Evaluation Procedures,” March 15, 1997 (the GCCS
            Requirements Manual), prescribes the specific coordination process and the
            responsibilities for assessing, defining, developing, funding, submitting,
            prioritizing, and validating new GCCS requirements. The GCCS Requirements
            Manual establishes the following as the standard for GCCS program
            management effectiveness.
                          The chief consideration of the development process is to accurately
                          define what the warfighter needs, find the best solutions government
                          or industry has to offer, and make a decision using select judgment
                          criteria to implement the most cost-effective solution.

            The requirements and responsibilities within the GCCS Requirements Manual
            and other Chairman of the Joint Chiefs of Staff guidance are projected to be
            revised to more closely align with the approved evolutionary acquisition
            strategy.9

            Evolutionary Acquisition Strategy. On September 18, 2000, the Assistant
            Secretary approved the “Global Command and Control System (GCCS)
            Evolutionary Acquisition Strategy, Revision 2.2.” The purpose of the
            evolutionary acquisition strategy is to align the GCCS acquisition strategy with
            DoD acquisition reform initiatives and oversight policies and support the rapid
            development and implementation of the GCCS.

            RAS Business Plan. The Secretary of Defense, in the “FY 1999-2003 Defense
            Planning Guidance,”10 July 2, 1997, requires that the Chairman of the Joint
            Chiefs of Staff recommend an integrated business plan for establishing a
            readiness assessment system capable of addressing the full spectrum of missions
            required by the U.S. Defense strategy. The resulting “RAS Business Plan,”
            June 1998, outlines the development plan for the RAS. The prescribed
            development plan uses an incremental and dynamic approach to replace with
            newer technology the antiquated elements of GSORTS, while at the same time


9
    The evolutionary acquisition strategy further details the roles of the Joint Staff (J-3) as the GCCS
    requirements validator, the Assessment Working Integrated Process Team in researching and evaluating
    candidate solutions to validated GCCS requirements, and DISA in integrating selected candidates
    applications into GCCS.
10
     The Defense Planning Guidance, signed by the Secretary of Defense, provides firm guidance in the
     form of goals, priorities, and objectives (including fiscal constraints) that the Military Departments and
     Defense agencies use to develop Program Objective Memorandums.

                                                         5
        add capabilities the changing global environment requires. The RAS Business
        Plan explains the intent of each RAS application and outlines development and
        funding timelines.

        Performance Measurements.11 The Clinger-Cohen Act of 1996 requires
        performance-based management12 and results-based management to reduce the
        cost of programs and support the efficiency and effectiveness of information
        technology investments. The Office of the Secretary of Defense Memorandum,
        “Requirements for Compliance with Reform Legislation for Information
        Technology (IT) Acquisitions (Including National Security Systems),” May 1,
        1997, implements the requirements of the Clinger-Cohen Act for the DoD. The
        memorandum implements performance measurements. The Clinger-Cohen Act
        requires Federal organizations to measure performance and devise processes that
        will obtain timely information on the progress of an investment in an
        information system. The Clinger-Cohen Act requires that organizations
        establish performance measurement processes that address independently
        verifiable milestones for measuring cost, timeliness, and application quality and
        capability of specified requirements. Performance measurement processes
        maximize the value as well as assess and manage the risks of information
        technology acquisitions.

User Requirements
        DISA and the Joint Staff did not provide sufficient assurance that the RAS
        Output Tool would satisfy user requirements. The GCCS Requirements Manual
        specifies that, “user participation in requirements definition, throughout
        evaluation, development, and fielding applications, is critical to the successful
        implementation of GCCS requirements.”

        User Awareness and Concerns. Potential users of the RAS Output Tool did
        not have sufficient assurance that the RAS Output Tool will satisfy
        requirements. To assess user awareness of and participation in the RAS Output
        Tool requirement identification and development, we surveyed each of the four
        Services and six13 of the nine combatant commands. As of December 2001, the
        U.S. European Command, the U.S. Pacific Command, the U.S. Special
        Operations Command, and the Air Force stated they had limited knowledge of

11
 Performance measurement is an assessment of the effectiveness and efficiency of information
 technology in support of the achievement of the missions, goals, and quantitative objectives of an
 organization through the application of outcome-based, measurable, and quantifiable criteria, compared
 against an established baseline to activities, operations, and processes.
12
 Performance-based management is a systematic approach to performance improvement through an
 ongoing process of establishing strategic performance objectives; measuring performance; collecting,
 analyzing, reviewing, and reporting performance data; and using that data to drive performance
 improvement.
13
 We surveyed the following combatant commands because they are the most significant potential users of
 the RAS Output Tool: U.S. Central Command, U.S. European Command, U.S. Joint Forces
 Command, U.S. Pacific Command, U.S. Special Operations Command, and U.S. Southern Command.

                                                   6
        the RAS Output Tool. In addition, the U.S. Central Command, the U.S.
        Southern Command, and the Navy all stated that they had no knowledge of the
        RAS Output Tool. Several of the users voiced concern that the application will
        not provide the functionality they require. For instance, the U.S. Joint Forces
        Command stated that the RAS Output Tool did not provide Joint Readiness
        Automated Management System (JRAMS)14 functionality and performed
        significantly slower than JRAMS. Also, Air Force officials stated that they had
        limited communication about the application with the Joint Staff.

        RAS Business Plan. The Joint Staff requested that the Secretary of Defense
        and the Services concur with the proposals for developing RAS as outlined in
        the RAS Business Plan. Each concurred; however, most officials voiced
        concern regarding the need to define requirements. In addition, the Army and
        the Air Force stated that the requirements needed to be validated. The Joint
        Staff did not request concurrence from the combatant commands.

               Secretary of Defense Comments. The Secretary of Defense approved
        the RAS Business Plan on September 15, 1999. However, the approval of the
        plan included substantive comments that should be included when the plan is
        revised. The Secretary requested revisions that would accurately reflect
        up-to-date schedule and funding information as well as emphasize the criticality
        of involving the combatant commands and other users in the development
        process:
                    The key to the utility and effectiveness of the RAS is the involvement
                    of the CINCs [Commanders in Chief] and other users in the
                    development process. Early involvement will improve understanding
                    of the potential of RAS and will lead to the identification of new
                    requirements.

                Army Comments. The Army concurred with the RAS Business Plan on
        June 8, 1998. Army officials did not, however, believe that DISA and the Joint
        Staff performed an adequate mission needs analysis or validated the requirement
        for a readiness assessment application as comprehensive as RAS. To determine
        the precise information timeliness requirements at each level of command and to
        target information to user needs, the Army felt that a more thorough mission
        needs statement would be required. The Army also believed that the RAS
        Business Plan cost estimates were unrealistic.

                Navy Comments. The Navy concurred with the RAS Business Plan on
        May 1, 1998. Navy officials stated that, although the RAS Business Plan
        provided a reasonable approach to developing a more comprehensive and
        user-friendly RAS, additional emphasis should be placed on determining user
        requirements to ensure that accurate information was available at the appropriate
        levels.

14
 The Defense Advanced Research Projects Agency developed JRAMS for the U.S. Joint Forces
 Command. JRAMS is a readiness analysis system that displays joint force status by accessing,
 compiling, and displaying information from disparate data sources such as the GSORTS and the Joint
 Operation Planning and Execution System databases.

                                                  7
        Air Force Comments. The Air Force concurred with the RAS Business
Plan on May 7, 1998. Air Force officials stated that the plan, however, did not
detail Service requirements for RAS fielding and that a coherent, detailed vision
of goals was needed. Officials recommended that the Joint Staff and DISA
produce a statement of need and a requirements document with specific, detailed
tasks and goals.

       Marine Corps Comments. The Marine Corps concurred with the RAS
Business Plan on April 29, 1998. Officials stated that, while readiness
operational requirements were derived in response to areas important to the
Joint Monthly Readiness Review, the Marine Corps believed, given the level of
funding applied to the RAS effort, that RAS oversight should enable a review of
future RAS requirements and a review of progress.

As of June 2002, DISA and the Joint Staff had not updated the RAS Business
Plan and could not document that they both had acted on the direction the
Secretary of Defense and the Services provided. In addition, DISA and the
Joint Staff had not requested input or concurrence from the combatant
commands.

Testing. DISA and the Joint Staff did not involve potential users in application
testing for extended periods. With the exception of U.S. Joint Forces
Command, the combatant commands and the Services had not participated in
RAS Output Tool testing. U.S. Joint Forces Command readiness analysts stated
that the functional qualification tests in which they participated were not
adequate because the tests did not provide a comprehensive assessment of the
functionality that the application would offer. Officials stated that the tests did
not help the developers or the users discern whether the RAS Output Tool
would be “operationally competent.” Further, U.S. Joint Forces Command
officials stated that the speed of the application and the quality of the graphics
were not adequate. During calendar years 2000 and 2001 DISA provided
limited hands-on testing experience, which has diminished the potential that
users will gain confidence that the RAS Output Tool will satisfy their needs.

The Joint Staff and DISA did not fully document critical decisions on
application selection. In addition, an adequate mechanism for measuring
performance was not established.

Support for Software Transition. Joint Staff and DISA officials did not
document how they concluded that the RAS Output Tool could be efficiently and
effectively fielded. In 1998, DISA transitioned the RAS Output Tool software
from the Defense Advanced Research Program Agency and began funding




                                     8
development of the application in GCCS. Joint Staff officials assessed the status
of the application upon transition from the Defense Advanced Research Program
Agency. Officials concluded that:

   •   only moderate hardware and software modifications would be required to
       prepare the application for fielding, and

   •   the RAS Output Tool could be fielded within 18 months at a cost of less
       than $1 million.

Officials did not maintain documentation on development and fielding estimates.

Search for Candidate Solutions. DISA could not document that they either
searched for or analyzed alternatives that would satisfy RAS Output Tool
requirements. The GCCS Requirements Manual specifies that a search for
candidate solutions for a new joint requirement should occur throughout the
DoD. The purpose of the search was to determine the extent to which existing
applications might economically provide the necessary functions in a timely
manner. According to the GCCS Requirements Manual, GCCS working groups
should solicit input on candidate applications that may satisfy new user
requirements from the users. Once the candidate applications are identified,
DISA should document any cost benefit analyses of technical solutions and
recommend the best technical solution for GCCS implementation that satisfies
the requirement, is cost effective, and is feasible to implement.

   Analysis of Alternatives. Existing Service or combatant command tools
might have met RAS Output Tool requirements, but the Joint Staff and DISA
could not document that they conducted an appropriate search of candidate
applications for the RAS Output Tool. DISA officials stated that they thought
seven systems were considered as alternative solutions to satisfy RAS Output
Tool requirements. However, neither Joint Staff nor DISA officials maintained
any records that confirmed a search took place. Officials did not maintain any
documentation that would support their conclusion that no other system would
meet the requirement.

    Joint Readiness Automated Management System. The Joint Staff could
not document that they analyzed JRAMS as a solution that would meet RAS
Output Tool requirements. The RAS Business Plan specifies that the RAS
Output Tool include the technical infrastructure and the viewing capabilities of
JRAMS. JRAMS is an operationally mature program that the U.S. Joint Forces
Command, the U.S. European Command, and the U.S. Pacific Command have
used. The functionality of JRAMS mirrors that of the RAS Output Tool, but
without the historic and trend capability and certain Service-unique
characteristics. The combatant commands, the Joint Staff, and DISA provided
numerous laudatory comments about JRAMS. The Joint Staff documented that
JRAMS was a possible alternative to the RAS Output Tool, further stating that it
was the best application that would meet the requirements and that JRAMS was
worthy of analysis. Both the Joint Staff and DISA officials were unable,



                                    9
    however, to provide a cost benefit analysis or any analysis on the technical
    feasibility of implementing JRAMS as a solution to satisfy RAS Output Tool
    requirements.

    Performance Measurements. DISA and the Joint Staff did not develop an
    adequate mechanism that would measure program performance against
    standards. DISA and Joint Staff officials did not develop performance standards
    for GCCS that could be applied to the RAS Output Tool. Specifically, DISA
    and the Joint Staff did not establish a performance standard that tied the RAS
    Output Tool to a set of clearly understood, quantifiable performance measures
    that would objectively assess the reliability, technical quality, cost, and schedule
    baselines for the application. Without performance measurements, officials
    could not adequately evaluate the ability of the application to meet user needs.

Fielding of the RAS Output Tool
    DISA and the Joint Staff did not meet development and fielding milestones for
    the RAS Output Tool. The projected fielding date for the RAS Output Tool
    slipped 44 months--from February 2000 to November 2003. Difficulties with
    the software, turnover of key personnel, and the RAS Output Tool failure to
    meet minimum operational standards caused numerous fielding delays. The
    table below depicts the delays in the projected RAS Output Tool fielding dates.


                          RAS Output Tool Fielding Delays

                                    Projected Completion    Time Past Initial
               Documentation                Date             Fielding Date

              RAS Business Plan
                 June 1998         February 28, 2000              N/A

              In Progress Review
                November 1999      December 15, 2000           11 months

              In Progress Review
                November 2000      September 18, 2001       1 year, 8 months

               Working Group
                 Meetings
               February 2001       October 23, 2001         1 year, 9 months

              Executive Steering
                 Committee
                  July 2001        November 1, 2003        3 years, 8 months




                                         10
       Fielding Schedule. The RAS Business Plan specifies that DoD field no later
       than February 28, 2000, an initial version, plus four Service-unique versions of
       the RAS Output Tool. As of January 31, 2002, DISA delayed fielding the
       initial version of the RAS Output Tool four times and projected that the initial
       version would not be fielded until November 2003. DISA did not expect to
       complete fielding of the Service-unique versions of the RAS Output Tool until at
       least FY 2006.

               In-Progress Reviews. During the RAS In-Progress Review held on
       November 24, 1999, DISA officials changed the initial fielding date of the RAS
       Output Tool to December 15, 2000, because of “difficulties with the initial
       software delivery being nonfunctional.” MITRE, Incorporated, suggested in an
       independent assessment of the RAS Output Tool completed in November 1999
       that the DoD estimates of costs, resources, and time were “aggressive.” At a
       November 22, 2000, RAS In-Progress Review, DISA again rescheduled to
       September 18, 2001, the initial fielding date for the RAS Output Tool. DISA
       cited significant changes in key personnel as the reason for the 9-month schedule
       slippage.

               GCCS Fielding Schedule. In February 2001, DISA chose to postpone
       fielding the RAS Output Tool and release the application as part of GCCS
       Version 3.4. DISA scheduled fielding of GCCS Version 3.4 and an initial
       version of the RAS Output Tool for October 23, 2001.

               Redesign. After a Joint Staff review of the detailed readiness
       requirements, the RAS Executive Steering Committee15 decided on July 25,
       2001, to delay fielding the RAS Output Tool until November 2003. Joint Staff
       officials explained that revised performance requirements for the RAS Output
       Tool required a redesign of the basic readiness architecture. The Joint Staff
       believed that unless design flaws were rectified, the RAS Output Tool would
       continue failing to meet minimum operational standards. The projected fielding
       date of November 2003 coincides with the fielding date of GCCS Version 4.2.

               Future Versions of the RAS Output Tool. DISA does not expect to
       complete fielding of the Service-unique versions of the RAS Output Tool until at
       least FY 2006. The RAS Business Plan specifies that all of the versions of the
       RAS Output Tool would be fielded by February 28, 2000. However, the four
       Service-unique versions of the application were postponed as a result of delays
       in fielding the initial version of the application.

RAS Output Tool Costs
       DISA has spent $1.3 million to develop the RAS Output Tool. DISA has also
       spent an unallocated portion of an additional $9.2 million to support the RAS

15
 The RAS Executive Steering Committee is an informal process action team created to direct the
 development of GCCS applications. The Committee is made up of senior officials from the
 Directorates for Operations (J-3) and Command, Control Communications and Computers (J-6), Joint
 Chiefs of Staff, representatives of DISA headquarters staff, and GCCS Program Management Office.

                                                11
Output Tool. DISA estimated that another $5.6 million is required to develop
and field the RAS Output Tool. With the fielding of the RAS Output Tool
5 years behind schedule, the combatant commands and Services have already
begun modifying existing applications or have already begun developing new
applications that will satisfy their unique requirements for performing readiness
analysis.

Quantifying RAS Output Tool Funds. Between January 1999 and
December 2001, DISA spent more than $10.5 million for the RAS development
costs. Figure 1 illustrates expenditures for readiness application support from
January 1999 through September 2001.




                                               $1,326,013




                                                            RAS Output Tool
                                                            Readiness Support*




                    $9,176,626
         *An unknown portion was applied to the RAS Output Tool.

        Figure 1. Readiness Application Support

RAS Output Tool Specific Funds. The $1,326,013 that DISA spent on
development of the RAS Output Tool covered technical documents,
enhancements, meeting support, and system redesign. During calendar year
2000, the RAS Output Tool continued to share enhancement costs with other
readiness applications. The RAS Output Tool incurred $866,763 of
enhancement costs during calendar year 2001, as illustrated in Figure 2. DISA
also disbursed during calendar year 2001 $158,919 developing technical
documents for the RAS Output Tool and $290,000 for a critical redesign of the
application.




                                             12
        $290,000                                       $158,919



                                                                     Technical Documents
  $10,331                                                            Enhancements
                                                                     Meeting Support
                                                                     System Redesign




                                                       $866,763

Figure 2. RAS Output Tool Development Expenses
Projected Future Costs. As of November 22, 2000, DISA projected that an
additional $5.6 million over 5 years would be required to field the four Service-
unique versions of the RAS Output Tool after the initial version of the
application was fielded. The Army version is scheduled for fielding in October
2002, followed by the Navy version in December 2003, the Air Force version in
January 2005, and the Marine Corps version in December 2005. Figure 3
illustrates the projected costs for Service-unique versions of the RAS Output
Tool.




                                           $1.86
                                  $2.00
            Dollars in Millions




                                                         $1.32         $1.38
                                  $1.50
                                                                                    $1.04
                                  $1.00

                                  $0.50

                                  $0.00
                                          Army         Navy          Air Force   Marine Corps
                                          Oct. 2002    Dec. 2003     Jan. 2005    Dec. 2005

                                                      Service-Unique Versions




Figure 3. Projected Development Costs for Service-Unique Versions

                                                           13
    Additional Readiness Assessment Tools. During the 5 years that the RAS
    Output Tool has been in development, the U.S. Joint Forces Command, the
    Army, and the Air Force have either developed new applications or modified
    existing applications to help satisfy unique readiness analysis requirements.
    Because of the absence of a GCCS baseline application for conducting readiness
    analyses, joint readiness action officers use various Service- and combatant
    command-unique applications to extract data they need from the GSORTS as
    well as the Joint Operation and Planning Execution System databases to prepare
    and present readiness analyses. Continued delays in fielding the RAS Output
    Tool have already required the users to perform readiness analysis of complex
    issues without the benefit of a mission essential, up-to-date automation product.
    Combatant commands and the Services have also continued to invest in
    upgrading existing systems or developing new readiness applications that will
    meet their needs. For instance, the U.S. Joint Forces Command continues to
    maintain the JRAMS and the Army continues to support the Army Readiness
    Management System. In addition, the Air Force has begun efforts to develop a
    new readiness analysis system that includes predictive capabilities.

Conclusion
    The DoD has spent more than 5 years and millions of dollars attempting to
    develop and field a readiness analysis application. Also, DISA does not appear
    to have thoroughly investigated the costs and feasibility of fielding the RAS
    Output Tool and does not appear to be testing operational performance
    requirements that agree with user requirements. Consequently, the program has
    encountered numerous fielding delays and DISA started a redesign effort to
    make the application operational. Furthermore, the RAS Output Tool may not
    satisfy readiness analysis requirements for the user. In addition, DoD did not
    establish performance measures that would facilitate effective program
    management and oversight and help ensure DISA fields a readiness analysis
    application.

Management Comments on the Finding and Audit Response
    Summaries of management comments on the finding and our audit response are
    in Appendix C.

Recommendations, Management Comments, and Audit
  Response
    Added, Deleted, Renumbered, and Revised Recommendations. As a result
    of management comments, we added Recommendation 1. to share with the
    entire DoD readiness community readiness information that is beneficial. We
    deleted draft Recommendation 2.e., and renumbered all recommendations to



                                       14
account for the changes. We revised draft Recommendations 1.a. and 2.a. to
account for recent strides in the development of the RAS Output Tool and draft
Recommendation 2.c. to improve clarity.

1. We recommend that the Under Secretary of Defense for Personnel and
Readiness publish findings from research on readiness issues for the
Defense Readiness Reporting System. The Joint Staff suggested that the
results from that research would benefit the DoD readiness community.

2. We recommend that the Director for Operations, Joint Staff:

        a. Proceed with planned testing in June 2002 of Readiness
Assessment System Output Tool Version 4.0 requirements, request users
attest that testing results met their requirements for fielding an application,
and revalidate the remaining requirements with current users within the
combatant commands, Services, and Defense agencies. If users do not
attest that the tool is adequate for fielding, then revalidate prior to
proceeding with any further development the mission need as well as all of
the requirements.

Joint Staff Comments. The Joint Staff concurred with the intent of the
recommendation but requested a modification in its execution. The Joint Staff
will invite combatant commands, Combat Support Agencies, and the Services to
review the more than 290 user requirements and any other requirements that
will be collected and earmarked for RAS Output Tool versions beyond 4.0 after
the June 2002 RAS Output Tool test is completed. DISA and the Joint Staff will
then be able to publish the results of the test and ask the users to review and
comment on the remaining user requirements that could potentially go into
future RAS Output Tool software. The 395 requirements scheduled for release
with GCCS Version 4.0 must not change. As of April 2002, DISA has satisfied
370 of the 395 requirements scheduled for inclusion in GCCS Version 4.0.
Those requirements, however, cannot change without either unacceptably
impeding or delaying the development process.

DISA Comments. DISA stated that the Joint Staff had reviewed the
requirements and briefed the results to the RAS Executive Steering Committee
in July 2001. The Joint Staff and DISA stated they plan to review the user
requirements list again in May 2002 in preparation of RAS Output Tool
functional user testing scheduled for June 2002. The Joint Staff plans to include
combatant command, Combat Support Agency, and readiness divisions of the
Services in the planned review of user requirements slated for versions beyond
4.0 of the RAS Output Tool as well as any additional requirements collected.

Deputy Assistant Secretary Comments. The Deputy Assistant Secretary of
Defense (Programs) stated that the Joint Staff Directorate for Operations (J-3)
had already revalidated in May 2001 the user requirements for the RAS Output
Tool. In addition, the Joint Staff and DISA plan to review the user requirement
list in May 2002 to prepare for functional user testing of the RAS Output Tool
scheduled for June 2002.


                                   15
Further, the Joint Staff plan to review user requirements as well as any
additional requirements collected for RAS Output Tool versions beyond 4.0 with
all users.

Audit Response. The Joint Staff comments are fully responsive. As a result of
those comments, we revised the recommendation to require revalidation of the
RAS Output Tool requirements only if the Version 4.0 testing proves the system
is unsuitable for fielding. We request additional comments from the Joint Staff
on the revised recommendation.

     b. For future GCCS readiness applications, search Government and
commercial sources for applications that will satisfy requirements and
document the results.

Joint Staff Comments. The Joint Staff did not concur with the
recommendation because a Joint Staff effort would be redundant and a waste of
time and money. The Office of the Under Secretary of Defense for Personnel
and Readiness (Under Secretary of Defense) looked at readiness applications
throughout DoD to conceptualize and develop an improved readiness reporting
system for DoD. Because the DoD readiness community would benefit, the
Joint Staff suggested that the report should recommend that the Office of the
Secretary of Defense publish findings. The Joint Staff will make sure future
studies of GCCS candidate applications are thoroughly documented and
archived.

Deputy Assistant Secretary Comments. The Deputy Assistant Secretary stated
that the Under Secretary of Defense, DISA, and the Joint Staff readiness
reporting initiatives fulfill this requirement. The Joint Staff is involved in a
similar process through the development of an operational requirements
document for GCCS.

DISA Comments. DISA stated that Under Secretary of Defense initiatives to
conceptualize and develop an improved readiness reporting system for DoD are
fulfilling this requirement. The Joint Staff and DISA are involved in the effort.
The Joint Staff is also involved in a similar process as part of the GCCS
operational requirements document development. Additional efforts in this
direction would be redundant.

Audit Response. Although the Joint Staff nonconcurred with the
recommendation, the Joint Staff agreed to ensure that future studies of GCCS
candidate applications are thoroughly documented and archived. The action
satisfies the intent of the recommendation.

        c. Develop performance standards that, as a minimum, provide a
way of assessing the performance, cost, schedule, technical quality and
reliability, and user satisfaction and formally report on the progress of the
Readiness Assessment System Output Tool in meeting those standards.

Joint Staff Comments. The Joint Staff concurred with the recommendation.


                                    16
Deputy Assistant Secretary Comments. The Deputy Assistant Secretary stated
that the recommendation tasks the Joint Staff to perform activities outside their
established role. The GCCS program manager is responsible for managing cost,
schedule and performance, and reporting in accordance with DoD
Regulation 5000.2-R, “Mandatory Procedures For Major Defense Acquisition
Programs and Major Automated Information System Acquisition Programs,”
April 5, 2002. The GCCS program manager is also responsible for developing
a plan that integrates test, accreditation, and fielding the RAS Output Tool as
part of GCCS. Office of the Secretary of Defense Director for Program
Assessment and Evaluation independently assesses the program costs through
review of the program’s economic analysis. The Assistant Secretary provides
oversight of the program while the Joint Staff and users provide assessment of
the functionality that is delivered in the RAS Output Tool.
DISA Comments. DISA stated that the Joint Staff identifies, validates, and
prioritizes GCCS requirements. The Joint Staff also provides to DISA objective
and threshold functional performance parameters. The DISA GCCS program
manager plans for the development, integration, testing, accreditation, and
fielding of the RAS Output Tool as part of the larger GCCS program. The Joint
Staff represents the users to assess how well the developed functions meet the
validated requirements as well as satisfaction with developed functionality.
However, the program manager assesses cost, schedule, and performance and
then reports the overall GCCS status by way of quarterly Defense Acquisition
Executive Summaries the acquisition oversight authority.

Audit Response. The Joint Staff comments are responsive. We recognize that
the Joint Staff and the GCCS Program Manager have differing responsibilities in
requirements development, program management and assessment. If each
diligently performs their delegated responsibilities as outlined in the Deputy
Assistant Secretary and DISA comments, we consider the responses meet the
intent of the recommendation.

3. We recommend that the Director, Defense Information Systems Agency:

        a. If testing in June 2002 does not meet minimum needs of the users
for fielding as the users stated, then pause development of the Readiness
Assessment System Output Tool until the questions with requirements
development, user satisfaction, program documentation, and performance
measurement have been fully addressed.

DISA Comments. DISA did not concur with the recommendation because a
pause in development would duplicate the RAS Executive Steering Committee
review that was performed during the spring and early summer 2001. Based on
a review that validation of requirements, functional qualification tests, and user
feedback, the RAS Executive Steering Committee directed in July 2001 that
DISA reengineer the RAS Output Tool. Since October 2001, DISA has
installed “pre-release, functioning versions of the RAS” output tool within the
Joint Staff, headquarters of the four Services, two Service component
headquarters, and two combatant command headquarters. The first test
involving users of an operational system from combatant commands and the

                                    17
Services is scheduled for June 2002. Another development pause would
exacerbate the condition that caused scheduling delays. Delays at this stage for
staff analysis would be inappropriate, costly, and counterproductive for
delivering the capability to the user.

Deputy Assistant Secretary Comments. The Deputy Assistant Secretary stated
that delays for staff analysis at this stage would be inappropriate, costly, and
counterproductive for delivering the capability to the user. The Joint Staff and
DISA have taken actions that will ensure delivery of the required RAS Output
Tool capability. Based on a review and validation of requirements, a functional
qualification test, and feedback from the user, the RAS Executive Steering
Committee directed in July 2001 that DISA reengineer the RAS Output Tool.
In October 2001, DISA began installing pre-release and functioning versions of
the RAS Output Tool within the Joint Staff, headquarters of the four Services,
two of the Service component headquarters, and two combatant command
headquarters. The first tests of an operational system were scheduled for June
2002. Users will be drawn from the combatant commands and the Services.
Another development pause would exacerbate the condition that caused
scheduling delays. Previous delays were the result of failures in the software to
meet user requirements.

Joint Staff Comments. The Joint Staff recommended against this course of
action. The rate of the developmental progress for the RAS Output Tool has
never been greater than now. In October 2001, DISA began installing pre-
release and functioning versions of the RAS Output Tool within the Joint Staff,
headquarters of the four Services, two of the Service Component headquarters,
and two combatant command headquarters. An additional prototype will soon
be installed at another combatant command. Initial response to the prototype
was favorable. The first user test of a production system was scheduled for
June 2002. Users will be drawn from the readiness community, combatant
commands, the Services, and at least one Combat Support Agency. A pause in
the schedule would exacerbate the condition that caused scheduling delays.
Previous delays were the result of failures in the software. Delays for staff
analysis at this stage would be inappropriate. The recommendations the
Inspector General of the Department of Defense described can be accomplished
in a parallel effort.

Audit Response. DISA nonconcurred with the recommendation because a
pause in the program would be detrimental. We acknowledge the advancement
in RAS Output Tool development since the beginning of our audit, and also
understand DISA, Deputy Assistant Secretary, and Joint Staff concerns about
further delay for a system that is scheduled for release within the next few
months. We modified the recommendation and request comments to the revised
recommendation from DISA.

       b. Develop and document cost and feasibility analyses of alternative
solutions proposed to satisfy Joint Staff identified requirements.

DISA Comments. DISA concurred with the recommendation. DISA has a
documented process in the GCCS evolutionary acquisition strategy for
developing cost and feasibility analyses of candidate solutions. The GCCS
                                   18
Block IV Implementation Plan will include the capabilities that successfully pass
cost and feasibility analyses and show how the capabilities are integrated into
GCCS. DISA plans to complete the Block IV Implementation Plan, provide it
to the GCCS Integrating Integrated Product Team, and submit it for GCCS
Milestone Decision Authority approval in the fourth quarter of FY 2002.

Deputy Assistant Secretary Comments. The Deputy Assistant Secretary stated
that the Joint Staff is responsible for developing GCCS requirements, and not
identifying solutions. The process of identifying candidate solutions and cost
and feasibility analyses for each solution is documented in the approved GCCS
evolutionary acquisition strategy.

Audit Response. The DISA comments are fully responsive. As stated by
DISA and the Deputy Assistant Secretary, the GCCS evolutionary acquisition
strategy and the Block IV Implementation Plan will include the documented cost
and feasibility analyses of alternative solutions.

       c. Survey the users during the application development process to
ensure the final product yields a user-friendly interface.

DISA Comments. DISA concurred with the recommendation, stating that an
ongoing installation of a series of engineering drops has taken place at various
locations. The installations allow users a hands-on evaluation and directly
contribute to the development effort. In addition to the upcoming functional
user’s test in June 2002, users are encouraged to submit evaluations at any time
during the development process. The Joint Staff is planning an additional user
review panel designed to evaluate the requirements not incorporated into the
RAS Output Tool schedule. Additional requirements for future versions of the
RAS Output Tool will also be solicited.

Deputy Assistant Secretary Comments. The Deputy Assistant Secretary stated
that the recommendation is vague and does not indicate the purpose of the
survey. The Deputy Assistant Secretary affirmed his support for user
involvement at appropriate points in the development process. The ongoing
process of installing a series of engineering drops at various locations allow
users an opportunity for hands-on evaluation and directly contribute to the
development effort. In addition to the upcoming functional user’s test in June
2002, users are encouraged to submit evaluations at any time during the
development process. The Joint Staff is planning an additional user review
panel designed to evaluate the requirements not incorporated into the RAS
output tool schedule. Additional requirements for future versions of the RAS
output tool will also be solicited.

Audit Response. The DISA comments are fully responsive. We modified the
recommendation to clarify the purpose of the survey. Planned actions by DISA
and the Joint Staff will ensure user needs are met.

       d. Support the Joint Staff in the development and application of
concrete, measurable, and quantifiable performance measurements that can
be accurately tested on the Readiness Assessment System Output Tool.

                                   19
DISA Comments. DISA concurred with the recommendation, stating that the
Assistant Secretary tasked the Joint Staff to develop a GCCS operational
requirements document, which will contain objective and threshold performance
parameters that are measurable and testable. DISA supports development of the
GCCS operational requirements document with participation in a
Joint Staff-established and led working group. With that participation, DISA
has already completed action on this item.

Deputy Assistant Secretary Comments. The Deputy Assistant Secretary stated
that the Joint Staff is responsible for ensuring that requirements are defined with
measurable and testable threshold and objective values. The Assistant Secretary
tasked the Joint Staff to develop an approved GCCS operational requirements
document with validated key performance parameters by October 2002. The
requirements document will include RAS Output Tool threshold and objective
requirements.

Audit Response. The DISA comments are fully responsive. Actions taken by
DISA, the Assistant Secretary and the Joint Staff to develop key performance
parameters in the GCCS operational requirements document will provide the
needed objective performance measurements.

       e. Maintain comprehensive records of milestones, goals, and key
decisions that document Readiness Assessment System Output Tool
progress.

DISA Comments. DISA concurred with the recommendation, stating that the
GCCS Block IV Implementation Plan will document how the RAS Output Tool
will be integrated into GCCS.




                                    20
Appendix A. Scope and Methodology

Scope
    We reviewed the guidance and procedures that the Joint Staff and DISA used to
    monitor readiness issues, and the guidance and procedures that pertained to
    requirements determination and fielding of appropriate GCCS capabilities.

    Work Performed. We reviewed joint DoD guidance that governs application
    and management of GCCS. We analyzed Chairman of the Joint Chiefs of Staff
    (CJCS) Instruction 3170.01B, “Requirements Generation System,” April 2001;
    CJCS Instruction 6721.01A, “Global Command and Control Management
    Structure,” November 2000; CJCS Manual 6721.01, “Global Command and
    Control System (GCCS) Functional Requirements Evaluation Procedures,”
    March 1997; “Readiness Assessment System Business Plan,” June 1998;
    “Global Command and Control System (GCCS) Transitional Evolutionary Phase
    Implementation Plan (EPIP) for Phase III,” September 2000; “Global Command
    and Control System (GCCS) Transitional Evolutionary Phase Implementation
    Plan (EPIP) for Phase IV,” unsigned draft dated June 2001; “Global Command
    and Control System (GCCS) Evolutionary Acquisition Strategy, Revision 2.2”
    signed September 18, 2000; “Guidelines for Successful Acquisition and
    Management of Software-Intensive Systems, Volume 1 - Version 3.0,” May
    2000; and Office of the Secretary of Defense Memorandum “Requirements for
    Compliance with Reform Legislation for Information Technology (IT)
    Acquisitions (Including National Security Systems),” May 1, 1997. The
    documentation reviewed covered the period from March 1997 through January
    2002.

    High-Risk Area. The General Accounting Office has identified several
    high-risk areas in DoD. This report provides coverage of the DoD Systems
    Modernization high-risk area.

Methodology
    During the audit, we evaluated methods that DoD used to develop and field
    GCCS applications. Specifically, we reviewed policies and guidance that
    govern Joint Staff and DISA responsibilities for identifying, documenting, and
    validating requirements for the RAS Output Tool. We also:

        •   analyzed minutes for Readiness Assessment Working Group meetings,
            RAS In-Progress Reviews, RAS Executive Officer Working Group
            meetings, and GSORTS Service meeting minutes from November 1998
            through July 2001;

        •   interviewed officials from the Joint Staff and DISA responsible for
            defining, developing, and implementing the RAS Output Tool;

                                        21
       •   reviewed documents the readiness community within the Joint Staff,
           DISA, the Army, U.S. Joint Forces Command, Defense Advanced
           Research and Planning Agency, and MITRE, Incorporated provided in
           support of the RAS Output Tool development, testing, and fielding;

       •   reviewed user surveys from and solicited comments of potential users
           throughout the U.S. Central Command, the U.S. European Command,
           the U.S. Joint Forces Command, the U.S. Pacific Command, the U.S.
           Southern Command, the U.S. Special Operations Command, the
           Services; and

       •   analyzed the statement of work, periodic contractor progress reports, and
           funding documents that support the $10.5 million in RAS development
           costs under contract number DCA100-99-C-4019 that cover
           January 1999 through January 2002.

    Use of Computer-Processed Data. We did not use computer-processed data to
    perform this audit.

    Audit Dates and Standards. We performed this audit from August 2001
    through January 2002 in accordance with generally accepted government
    auditing standards. Accordingly, we included tests of management controls
    considered necessary.

    Contacts During the Audit. We visited or contacted individuals and
    organizations within DoD. Further details are available on request.

Management Control Program Review
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26,
    1996, and DoD Instruction 5010.40, “Management Control (MC) Program
    Procedures,” August 28, 1996, require DoD organizations to implement a
    comprehensive system of management controls that provides reasonable
    assurance that programs are operating as intended and to evaluate the adequacy
    of those controls.

    Scope of the Review of the Management Control Program. We reviewed the
    adequacy of management controls at the Joint Staff and DISA related to GCCS.
    We reviewed management controls over GCCS requirements generation and
    program implementation. We also reviewed management’s self-evaluation
    applicable to those controls.

    Adequacy of Management Controls. We identified material management
    control weaknesses within the Joint Staff and DISA as defined by DoD
    Instruction 5010.40. Specifically, management controls of the Joint Staff for
    GCCS oversight and requirements development did not exist.
    Recommendations 2.a., 2.b., and 2.c., if implemented, will improve GCCS
    management and development for new applications in GCCS. Also,
    management controls in DISA for GCCS did not ensure that GCCS RAS Output
    Tool functionality was developed, fielded, and documented with requirements
                                       22
     that the users determined were critical. Recommendation 3.a., 3.b., 3.c., 3.d.,
     3.e., if implemented, will improve GCCS management and development of new
     applications in GCCS. A copy of the report will be provided to the senior
     officials responsible for management controls at the Joint Staff and DISA.

     Adequacy of Self-Evaluation. The Joint Staff did not address GCCS as an
     assessable unit and, therefore, did not identify or report the material
     management control weaknesses identified by the audit. DISA addressed
     management controls as an assessable unit and performed tests of controls on
     areas applicable to our audit objectives. DISA officials did not perform
     adequate tests of controls to ensure that applications such as RAS had effective
     program management that includes appropriately developed user requirements
     and adequate baseline tracking of program status.

Prior Coverage
     During the last 5 years, one General Accounting Office report that related to
     military readiness and two Inspector General of the Department of Defense
     (IG DoD) reports that pertained to GCCS were issued. The General Accounting
     Office and IG DoD conducted multiple reviews of GCCS or GCCS applications.
     The General Accounting Office reports can be accessed on the Internet at
     http://www.gao.gov. Unrestricted IG DoD reports can be accessed at
     http://www.dodig.osd.mil/audit/reports.

General Accounting Office
     General Accounting Office Report No. NSIAD-98-68, “Military Readiness
     Reports to Congress Provide Few Details on Deficiencies and Solutions,”
     March 1998

IG DoD
     IG DoD Report No. D-2002-084, “Guidance for the Global Command and
     Control System Common Operational Picture,” May 1, 2002

     IG DoD Report No. D-2001-157, “Global Command and Control System
     Meteorological and Oceanographic Application,” July 11, 2001




                                         23
Appendix B. RAS Applications
   The RAS Business Plan prescribes an incremental approach for replacing
   outmoded elements of GSORTS with newer technology while adding capabilities
   that the changing global environment requires. The original RAS consisted of
   four independent components. However, two of the four components were
   cancelled. The RAS Output Tool is one of the applications designed to be
   merged into the homogenous RAS system. The other two applications
   originally planned for the system were the Automated Joint Monthly Readiness
   Review and the Joint Exercise Management Program III.

   Automated Joint Monthly Readiness Review. Through automated, near
   real-time collated, classified briefings and improved scenario analysis, the
   Automated Joint Monthly Readiness Review component of RAS was intended to
   streamline the Joint Monthly Readiness Review preparation process. As
   originally envisioned in 1996, the Automated Joint Monthly Readiness Review
   would have served as a combatant command Joint Monthly Readiness Review
   reporting tool. The Joint Monthly Readiness Review reporting process matured
   and integrated commercial software, secure message, and video teleconference
   technologies, which lessened the need for additional automation. On August 28,
   2000, the Joint Staff recommended that DISA discontinue funding and
   developing the Automated Joint Monthly Readiness Review and abandon plans
   to make the application a GCCS mission application.

   Joint Exercise Management Program III. The Joint Exercise Management
   Program III would have enabled the user to import Joint Mission Essential Task
   List training assessment ratings that units and combatant commands complete
   within the Joint Training System. To help action officers prepare Joint Monthly
   Readiness Report briefings, the Joint Exercise Management Program III would
   have allowed access to Joint Mission Essential Task List assessments from
   within the Automated Joint Monthly Readiness Reporting system. Access to
   Joint Mission Essential Task List assessments was incorporated into the
   Automated Joint Monthly Readiness Review, and the Joint Training Information
   Management System replaced the Joint Exercise Management Program III. The
   Joint Exercise Management Program III will not be included in RAS.

   RAS Input Tool. The RAS Input Tool will allow near real-time reporting,
   improve the accuracy of GSORTS data, and support crisis planning through
   direct registration capabilities and status reporting functions. The RAS Input
   Tool will enable Service, joint, and coalition units to submit user-friendly
   reports directly to the GSORTS database. The application is designed to replace
   Service-unique input applications with a single application that is easily modified
   as new requirements are added, thus eliminating costly and time-consuming
   requirements that synchronize the system maintenance contracts of the Services.
   The RAS Input Tool allows efficient updates that help the user keep pace with
   rapidly changing world conditions or reporting requirements. Once reports are
   submitted to the master database, critical, tactical, and operational readiness
   information would be immediately accessible to decision makers by way of the
   RAS Output Tool. The Marine Corps received the RAS Input Tool in
                                       24
April 2002 along with the release of GCCS Version 3.4. As of June 19, 2002,
DISA projected that the Air Force would receive the RAS Input Tool during the
third quarter of FY 2003. The Army and the Navy are not required to adopt the
RAS Input Tool because their Service-specific tools are designed to meet title 10
responsibilities beyond the scope of the RAS Input Tool.




                                   25
Appendix C. Management Comments on the
            Report and Audit Responses
     In addition to the responses to the recommendations, the Deputy Assistant
     Secretary of Defense (Programs), Director, Joint Staff, and the Director, DISA
     provided comments on the audit report. Their comments are summarized and
     presented by topic along with the associated audit responses.

Corrective Actions

     Deputy Assistant Secretary Comments. The Deputy Assistant Secretary stated
     that DISA and the Joint Staff had already identified and initiated corrective
     actions that mirror the recommendations of this audit. The Deputy Assistant
     Secretary stated that plans for cost and feasibility analyses will be completed by
     the fourth quarter of FY 2002 and that the Joint Staff was tasked to develop an
     operational requirements document.

     Joint Staff. The Joint Staff stated that the audit was limited to a historical
     review and failed to consider current and future development plans for the RAS
     Output Tool. The timeline and reengineering effort place the RAS Output Tool
     on a development schedule that addresses previously discovered performance
     shortfalls and involves users from the readiness community.

     DISA Comments. DISA stated that the timeline for the RAS Output Tool
     incorporates a major reengineering effort that will produce a robust and
     responsive tool that will meet user requirements. DISA acknowledged that
     adequate mechanisms for measuring performance were not yet established but a
     GCCS operational requirements document would satisfy the requirement.

     Audit Response. We recognize and commend the efforts of the Assistant
     Secretary for reducing the earlier experiments in tailoring the acquisition
     processes and bringing the program into conformity with DoD acquisition
     management requirements. We also recognize the Joint Staff program
     leadership and DISA project development efforts. A GCCS operational
     requirements document is clearly needed. We have some concerns, however,
     that the operational requirements document and the performance standards will
     be developed to justify already completed work rather than to satisfy current
     needs. We will address our concerns in the audit followup process.




                                         26
Readiness Assessment System
     Joint Staff Comments. The Joint Staff stated that the draft report failed to
     recognize the distinction between the RAS and the RAS Output Tool.
     The Joint Staff also stated that the historical view presented in the report failed
     to consider current and future development plans for the RAS Output Tool.

     DISA Comments. DISA stated that the report unfairly applied standards
     intended for the RAS to the RAS Output Tool.

     Audit Response. The report establishes the relationship between the RAS
     Output Tool and the RAS discussed on page 2 of this report. The additional
     RAS applications are discussed in Appendix B. The Joint Staff and DISA could
     not provide standard criteria governing the development of the RAS Output Tool
     that was more current than the June 1998 RAS Business Plan. The Joint Staff
     established the requirement in a June 1998 message that the RAS Output Tool
     replace Service and combatant command tools while retaining JRAMS
     functionality. At no point in the report do we hold the RAS Output Tool to
     standards intended for other applications. Unless otherwise qualified, we
     interpreted the term “RAS” in the RAS Business Plan to mean all components
     of the RAS.

User Requirements
     Joint Staff Comments. The Joint Staff stated that the lack of community
     awareness noted in the survey is not surprising considering personnel turnover
     rates compared to RAS development timeline. Users do not normally
     participate in the developmental phase of the system acquisition process, nor do
     they conduct formal developmental testing because they would likely provide
     conflicting or confusing feedback that would be more likely to disrupt, not
     enhance the process. RAS requirements were briefed as necessary to the Global
     Command and Control Readiness Working Group and the Global Command and
     Control Readiness Working Group User Review Panel. Since functional
     versions of RAS Output Tool have been provided to various commands, perhaps
     the Inspector General, Department of Defense failed to interview the right
     people. Although the Joint Staff acknowledged that JRAMS had superior speed
     to RAS, the Joint Staff also criticized the comparison to the RAS Output Tool.
     The Joint Staff disagreed that DISA and the Joint Staff have not provided
     sufficient assurance that the RAS Output Tool will satisfy user requirements.
     The Joint Staff amassed a total of 734 requirements for RAS Output Tool from
     combatant commanders and Services. The list is constantly validated, updated
     and documented, with 395 requirements incorporated in RAS Output Tool 4.0.

     DISA Comments. DISA agreed that potential users lacked the knowledge and
     involvement with the RAS Output Tool at the time of the audit. However,
     DISA is currently developing the RAS Output Tool based on a total of 734
     requirements derived from Combatant Commands and Services. These
     requirements originated from a series of Joint Application Development sessions
     held between mid-1997 and 1999 with Combatant Command and Service
     representatives and approved by the Joint Staff. DISA acknowledged that the
                                          27
     lack of speed was a major driving force behind the recommendation to
     reengineer the RAS Output Tool in July 2001. DISA added that the RAS
     Output Tool is slower than JRAMS because the RAS Output Tool must search
     and provide more data. DISA recently provided pre-release engineering drops
     of the RAS Output Tool to several users.

     Audit Response. We contacted users identified by the Joint Staff as
     representing the readiness user community. Neither the Joint Staff nor DISA
     could document that the RAS Output Tool requirements were generated from
     the Joint Application Development sessions or that RAS users other than the
     Joint Staff constantly validated and updated requirements. The Joint Staff
     revalidation in May 2001 of user requirements did not include end-user
     involvement. The Joint Staff stated, in response to renumbered
     Recommendation 2.a., that as a developmental necessity the RAS Output Tool
     requirements were “locked-in and will not change because software engineers
     cannot hit a moving target resulting from changing requirements.” Such a
     policy appears reasonable in cases where fielding dates have not slipped more
     than 2 years and development initiated based on an approved operational
     requirements document. In addition, users were not able to develop an
     expectation for RAS Output Tool system speed, due to the limited user
     involvement, and only had JRAMS performance to draw a comparison.

     Air Force guidance on software process improvement, Guidelines for Successful
     Acquisition and Management of Software-Intensive Systems, Volume 1 -
     Version 3.0, May 2000, emphasizes the need for the user and developer to work
     together:

            As long as programmers are writing code, they are making design decisions,
            just at a more detailed level. Many of these details will impact the usability
            and performance of the system, just not at a high enough level for the people
            who wrote the requirements to be aware of them. The field users of such
            systems, however, will almost always find that systems developed blindly from
            requirements documents are inconvenient and unwieldy in operational use.
            Truly superior usability can only be obtained when the developers have an in-
            depth knowledge of actual field conditions. While suppliers should start from
            official requirements, these must be recognized as a starting point and that
            much more detailed knowledge is required before the system can actually be
            built. The key is to make the supplier responsible for devising, defining, and
            using a process that uncovers true operational requirements.

RAS Business Plan
     Joint Staff Comments. Although the Joint Staff acknowledged issues involving
     validation of requirements, the Joint Staff nonconcurred with conclusions drawn
     from the RAS Business Plan and the inclusion of the Secretary of Defense
     comments which applied to future RAS development. The Joint Staff also stated
     that the Army comments applied to the full RAS business plan; not specifically
     the RAS Output Tool. The Army was worried that RAS Business Plan was too
     invasive, not that RAS Output Tool would not meet their need. The Joint Staff


                                             28
     stated that Service comments were incorporated into the RAS Business Plan and
     agreed with DISA that standards for the entire RAS were applied to the RAS
     Output Tool.

     DISA Comments. DISA stated that the draft report misrepresented comments
     that the Secretary of Defense and the Army provided. The Secretary of Defense
     comments were to be included in a section of the RAS Business Plan that
     pertains to future applications. DISA contends the Army had no concerns about
     the ability to of the RAS Output Tool meeting Army needs.

     Audit Response. Although the Secretary of Defense comments were included
     in a section of the RAS Business Plan that pertains to future applications, those
     comments addressed the RAS without qualification. Unless stated otherwise,
     we interpret references to the “RAS” to include all RAS applications. We also
     believe the Army comments that DISA provided in support of the DISA position
     speak for themselves.
          The recurring concepts supporting RAS are “commanders at all levels” and “near
          real time” readiness information. Army believes a more thorough mission needs
          analysis is needed to determine more precisely the information timeliness needs at
          each level of command, and to target that information to the needs of the recipient.
          For instance, policy makers do not need minute details or 24-hour readiness
          updates to carry out policy-making responsibilities. Additionally, in the world of
          deliberate planning, current readiness data is not useful . . . Only in the sourcing of
          contingency operation force requirements is current readiness a factor.

               RAS seems to be driven more by the fact that the technology to achieve a
          directed telescope to the forward foxhole will soon be available than by any
          validated need. Army acknowledges that RAS consists of a grouping of systems
          and software, which are already in some state of development or fielding, many of
          which are already funded and are intended to be resident in the GCCS/GCSS
          suites. However, Army believes that the true cost of a comprehensive RAS has not
          been determined.        Finally, Army is concerned that the potential for
          micromanagement inherent in RAS represents an intentional or unintentional
          intrusion into the Services’ title X responsibilities to provide ready forces to the
          combatant commanders.

Testing
     Joint Staff Comments. The Joint Staff stated that the RAS Output Tool was
     tested on numerous occasions and that scheduling delays were a direct result of
     system failures identified during testing. The Joint Staff stated that U.S. Joint
     Forces Command comments on the adequacy of the functional qualification tests
     were typical of users who apply standards for mature systems to evolving
     systems. Involving users too early in the process usually erodes their
     confidence in the system and can have the opposite effect as recommended by
     the Office of the Inspector General, Department of Defense.

     DISA Comments. DISA stated that when users are involved too early in the
     testing process, confidence in the final system could be irretrievably damaged.

                                                 29
     Users not eminently familiar with systems development methodology would
     provide confusing or conflicting feedback. However, once the product reaches
     the latter stages of developmental testing and clearly during the operational
     testing phase, user input is essential. The Joint Staff mandate ensures that
     functional user and operational testing heavily rely on user representatives. For
     example, to obtain feedback on the JRAMS functions being incorporated into
     the RAS Output Tool, DISA asked the U.S. Joint Forces Command to view a
     RAS Output Tool demonstration. The U.S. Joint Forces Command
     demonstration resulted in eight new validated requirements. A functional user
     test was scheduled for June 2002.

     Audit Response. Developing a product without continued user involvement
     increases the risk that the product would not satisfy user’s needs, particularly
     after a long development period. While there are times when lessened user
     involvement is understandable, a multiyear cessation is harder to defend without
     verifying a continued user’s need. Neither the Joint Staff nor DISA could
     provide any documentation that users other than the Joint Staff and U.S. Joint
     Forces Command had consulted in the development of the RAS Output Tool.
     Only the Joint Staff appears to have been involved in the May 2001
     requirements validations. We support the recent activity intended to expose the
     users to the pre-release engineering drop of the proposed RAS Output Tool and
     the planned functional user testing.

Documentation of Decisions
     Joint Staff Comments. The Joint Staff stated that a review of Joint Staff
     records did not reveal the documentation that would support a search for
     candidate solutions and analysis of alternatives took place. By the time the
     Secretary of Defense approved the RAS Business Plan, the milestone decision
     was made that DISA proceed with development of the RAS Output Tool by
     building on the work the original development contractor began. There is also a
     volume of correspondence covering the period from January 1998 to July 2000,
     which provides considerable detail into the origin, shortcomings and missed
     milestones for the RAS Output Tool. There is a much smaller volume covering
     the current contract covering RAS applications in general, including the RAS
     Output Tool.

     DISA Comments. DISA stated that critical development and fielding decisions
     have been documented with a great deal of correspondence that has provided
     considerable detail into milestones and decisions.

     Audit Response. Neither the Joint Staff nor DISA provided any documentation
     that supported any analysis of alternatives, user involvement in revalidation, or
     other documentation from application development sessions. DISA and the
     Joint Staff did not demonstrate in the documentation provided that an analysis
     had taken place of cost, performance, and schedule that applied to the RAS
     Output Tool. The Joint Staff provided evidence of a DISA request for
     requirement revalidation. However, the Joint Staff response did not show user
     involvement in the revalidation.


                                        30
Development of Alternative Applications
     Joint Staff Comments. The Joint Staff disagreed that delays in fielding of the
     RAS Output Tool required the combatant commands and Services to either
     develop new applications or modify existing applications. The Joint Staff stated
     that the RAS Output Tool was never intended to replace combatant command or
     Service tools, and that the RAS Input Tool was the only one of the four original
     RAS applications designed to do so.

     DISA Comments. DISA disagreed with the connection between RAS Output
     Tool delays and the development of combatant command or Service tools. The
     RAS Input Tool was designed to replace selected Service input tools, but the
     RAS Input Tool is not an application for performing readiness analysis.
     Audit Response. The Joint Staff message that terminated JRAMS development
     in 1998 states that the RAS Output Tool will contain all of the JRAMS
     functions. The U.S. Joint Forces Command has continued to fund JRAMS
     development because they believe that the RAS Output Tool will not fulfill the
     needs that JRAMS supplies. The RAS Business Plan states that the RAS Output
     Tool will include the functions of the Army Readiness Management System,
     which the Army continues to run and maintain. The Air Force is developing the
     Predictive Readiness Assessment System. Predictive functionality of the RAS
     Output Tool will provide unit trends over a period of time and will project
     readiness levels of particular units.

Performance Measures
     Joint Staff Comments. DISA and the Joint Staff did establish effective
     performance measures to monitor development and measure success, or failure,
     against a specific set of criteria. Every single approved requirement stated for
     RAS Output Tool version 4.0 has a documented test procedure and an expected
     outcome.

     DISA Comments. DISA agreed that an adequate mechanism for measuring
     performance was not established. In November 2000, a GCCS program
     management review recognized the need for a GCCS operational requirements
     document which will identify objectives and thresholds for operational
     requirements, as well as key performance parameters for the GCCS system, to
     include RAS Output Tool. The Joint Staff is currently developing a GCCS
     operational requirements document.




                                        31
Appendix D. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
Under Secretary of Defense for Personnel and Readiness
Assistant Secretary of Defense (Command, Control, Communications, and Intelligence)

Joint Staff
Director, Joint Staff
   Director, Operations (J-3)
   Director, Command, Control, Communications, and Computers (J-6)

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Unified Commands
Commander, U.S. European Command
Commander, U.S. Pacific Command
Commander, U.S. Joint Forces Command
Commander, U.S. Southern Command
Commander, U.S. Central Command
Commander, U.S. Space Command
Commander, U.S. Special Operations Command




                                          32
Unified Commands (cont’d)
Commander, U.S. Transportation Command
Commander, U.S. Strategic Command

Other Defense Organization
Director, Defense Information Systems Agency

Non-Defense Federal Organization
Office of Management and Budget

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform




                                         33
Assistant Secretary of Defense (Command,
Control, Communications, and Intelligence)




                      35
Final Report
 Reference




Revised and
renumbered
as
Recommen-
dation 2.a.
Page 15




Renumbered
as
Recommen-
dation 2.b.
Page 16




               36
     Final Report
      Reference




     Renumbered
     as
     Recommen-
     dation 2.c.
     Page 16




     Revised and
     renumbered
     as
     Recommen-
     dation 3.a.
     Page 17




37
Final Report
 Reference




Renumbered
as
Recommen-
dation 3.b.
Page 18




Revised and
renumbered
as
Recommend
ation 3.c.
Page 19




Renumbered
as
Recommen-
dation 3.d.
Page 19




Deleted




               38
39
Joint Staff Comments




                       41
42
43
44
45
46
     Final Report
      Reference




     Deleted




     Revised




47
Final Report
 Reference




Modified




Page 10




               48
49
50
51
52
53
54
     Final Report
      Reference




     Page 22




55
Final Report
 Reference




Page 15
Revised and
renumbered
as
Recommen-
dation 2.a.




               56
     Final Report
      Reference




     Renumbered
     as
     Recommen-
     dation 2.b.




     Added
     Recommen-
     dation 1.




     Renumbered
     as
     Recommen-
     dation 2.c.




     Page 17
     Revised and
     renumbered
     as
     Recommen-
     dation 3.a.




57
58
Defense Information Systems Agency
Comments




                     59
Final Report
 Reference




Revised and
renumbered
as
Recommen-
dation 2.a.




               60
     Final Report
      Reference




     Renumbered
     as
     Recommen-
     dation 2.b.




     Renumbered
     as
     Recommen-
     dation 2.c.




     Revised and
     renumbered
     as
     Recommen-
     dation 3.a.




61
Final Report
 Reference




Renumbered
as
Recommen-
dation 3.b.




Revised and
renumbered
as
Recommen-
dation 3.c.




               62
     Final Report
      Reference




     Renumbered
     as
     Recommen-
     dation 3.d.




     Deleted




63
Final Report
 Reference




Renumbered
as
Recommen-
dation 3.e.


Page 22




               64
65
66
67
Final Report
 Reference




Deleted




Revised




               68
69
70
71
Final Report
 Reference




Revised




               72
73
74
     Final Report
      Reference




     Footnote
     Page 4




75
76
Team Members
The Readiness and Logistics Directorate, Office of the Assistant Inspector
General for Auditing of the Department of Defense prepared this report.
Personnel of the Office of the Inspector General of the Department of Defense
who contributed to the report are listed below.

Shelton R. Young
Kimberley Caprio
Evelyn R. Klemstine
George Cherry
Cheryl Snyder
Timothy A. Cole
Robert Martens
Peter Johnson
Sharon Carvalho
